No.

1-5866

filed
AUG 1 1 2021

IN THE
SUPREME COURT OF THE UNITED STATES

VrconcLsro Ycunir /Aiix/JCL- PETITIONER
(Your Name)
vs.
\

142

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

O'rnWcL

K)Ivrik.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

fanr iA i fo
(Your Name)

j&U loS QfojftA C^
(Address)

A4voaW. (k qyfl)
(City, State, Zip Code)
A

*

(Phone Number)

received
*

OCT -1 2021

QUESTIONS PRESENTED
Whether fair-minded jurists could disagree with a reviewing courts decision to ignore a claim of actual
innocence, not presented for review in prisoner’s direct appeal nor first habeas petition, despite
prisoners overwhelming showing of actual innocence.
Where the “due process of law” clause of the U.S. Constitution, Amendment XIV, regarding the State’s
obligation to follow die United States Constitution including the Due Process Clause is bong deprived
by the Ninth Circuit Court of Appeals and actual innocence is completely being overlooked which
deprives Petitioner of being allowed to prove Factual Innocence to his State charge and Conviction.
Where case law precedent in this very Court contradicts the Ninth Circuit of Appeal’s opinion and
decision on Xx xx, 2021 that the Supreme Court’s job is to keep in uniformity with other top Appeals
Courts decisions and State Supreme Court decisions under the Supremacy Clause of the U.S.
Constitution?
Where the Ninth Circuit Court of Appeals had failed to recognize the U.S. Constitution’s miscarriage of
justice exception for a habeas corpus procedural defect and that an actual innocence claim leading
toward a wrongful conviction in a state court should be an exception to such procedural defect?
PARTIES TO THE PROCEEDINGS BELOW
The petition arises from a habeas corpus proceeding in which Petitioner, Francisco Carbajal, sought
relief from the Ninth Circuit Court of Appeals.
LIST OF RELATED PROCEEDINGS
19-CV-00956-SKO
19-CV-01628JEPG
20-71428
S256824 S256822 10/09/2019
14CR009743 08/13/2019
S254995 06/26/2019
F079377 06/06/2019
F078921 04/10/2019
17225,20873 03/20/2019
17-C V-00143-SKO 09/24/2018
F071474 03/24/2017
TABLE OF CONTENTS

Page
QUESTIONS PRESENTED. ..........................
PARTIES TO THE PROCEEDINGS BELOW
LIST OF RELATED PROCEEDINGS...........
INDEX TO APPENDICES.............................
TABLE OF AUTHORITIES...........................
OPINIONS BELOW.......................................
STATEMENT OF JURISDICTION................

1
1
1
2
2
4
4

CONSTITUTIONAL PROVISIONS
STATEMENT OF THE CASE........

4
4

A. Hie District Court Affirmed Carbajal’s Conviction And Denied Post-Conviction Relief
Based On a Decision Contrary to Reasonable Application of Federal Law...........
4
B. Carbajal Demonstrated His Conviction Was Obtained Through An Improper Jury instruction
that Omitted an Element of the Offense In Violation Of U.S. v. Gaudin, 515 U.S. 506.. 4
C. The CCA Entered A Cursory Denial Of Habeas Relief.
4
REASONS FOR GRANTING THE WRIT...............................
4
I. THE US COURT OF APPEALS FAILED TO CONSIDER CALIFORNIA COURTS’
UNREASONABLE APPLICATION OF FEDERAL LAW IN VIOLATION OF THE
SIXTH AND FOURTEENTH AMENDMENTS........... .......................................... 5
H. THAT CARBAJAL’S CONVICTION REMAINS IS PREMISED ON THE PRESUMPTION
THAT DEFERENCE TO A STATE COURTS DECISION - A DECISION SUBJECTED
TO A DEGREE OF CERTITUDE - HAS SINCE BEEN DISCOVERED TO BE IN
VIOLATION OF DUE PROCESS.
5
II. CARBAJAL’S CONVICTION WOULD VIOLATE THE UNITED STATES
CONSTITUTION BECAUSE HE IS ACTUALLY INNOCENT OF THE ATTEMPTED
RAPE OF SYLVIA CARBAJAL.
5
CONCLUSION

5
INDEX TO APPENDICES

APPENDIX A
Order of the Ninth Circuit Court of Appeals Francisco Xavier Carbajal v. Ralph
Diaz, No. 20-15535 (May 14,2021)
APPENDIX B
Order of the E.D. Cal. Adopting Findings and Recommendation, Denying
Petition for Writ of Habeas Corpus, and Declining to Issue Certificate of Appealability
E.D. CaL Findings and Recommendation to Dismiss Petition for Writ of Habeas
APPENDIX C
Corpus
APPENDIX D
EX). CaL Order Adopting Findings and Recommendations, Order Dismissing
Successive Petition for Writ of Habeas Corpus, Order Directing Clerk of Court to Enter
Judgment and Close Case, and Order Declining to Issue Certificate of Appealability.
APPENDIX E
EX). CaL Findings and Recommendation to Dismiss Successive Petition for Writ
of Habeas Corpus, Order Directing Clerk of Court to Assign District Judge
APPENDIX F
E.D. CaL Order Denying Petition for Wit of Habeas Corpus
APPENDIX G
Cal. 5* District Court of Appeal Opinion
APPENDIX H
Ninth Circuit Court of Appeals Application for Certificate of Appealability
APPENDIX I
Ninth Circuit Court of Appeals Supplemental Application for Certificate of
Appealability with Suggestions in Support
TABLE OF AUTHORITIES
CASES
Apprendi v. New Jersey, 530 U.S.
Arizona v. Fulminante, 499 U.S. 279
Barefoot v. Estelle, 463 U.S. 880

PAGE NO.
App.H-6
App. H-10
App. H-l

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI
Through his Actual Innocence and other Due Process claims, Francisco Carbajal asks this Court to
resolve important constitutional questions so that California does continue to punish an innocent man.
The Ninth Circuit Court of Appeals disposed of Carbajal’s constitutional claims challenging his
conviction in a terse and largely boilerplate decision.
The summary decision ignored uncontradicted evidence that completely negates the State’s case against
Carbajal at trial and instead relies on unreasonable deference to the lower courts opinion.
Carbajal now seeks review of the decision below which wrongly, and under an inappropriately high
standard, rejected his comprehensive showing of actual innocence.
OPINIONS BELOW
The Xx xx, 2021 order of the Ninth Circuit Court of Appeals under review is unreported. (App.-la.) 2
STATEMENT OF JURISDICTION
The Ninth Circuit Court of Appeals issued its order on Xx xx, 2021. (App.-la.) This Court has
jurisdiction under 28 U.S.C. §1257(a).
CONSTITUTIONAL PROVISIONS
The Sixth Amendment provides that a criminal defendant enjoys the right to have a jury determine his
guilt of every element of his crime beyond a reasonable doubt
The Fourteenth Amendment provides in relevant part that “nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.” U.S. Const Amend. XTV.
STATEMENT OF THE CASE
A. The District Court Affirmed Carbajal’s Conviction And Denied Post-Conviction Relief
Based On a Decision Contrary to Reasonable Application of Federal Law.
B. Carbajal Demonstrated His Conviction Was Obtained Through An Improper Jury instruction
that Omitted an Element of the Offense In Violation Of U.S. v. Gaudin, 515 U.S. 506.
C. The CCA Entered A Cursory Denial Of Habeas Relief.

REASONS FOR GRANTING THE WRIT
I. THE US COURT OF APPEALS FAILED TO CONSIDER CALIFORNIA COURTS*
UNREASONABLE APPLICATION OF FEDERAL LAW IN VIOLATION OF THE SIXTH AND
FOURTEENTH AMENDMENTS
n. THAT CARBAJAL'S CONVICTION REMAINS IS PREMISED ON THE PRESUMPTION THAT
DEFERENCE TO A STATE COURTS DECISION - A DECISION SUBJECTED TO A DEGREE OF
CERTITUDE - THAT HAS SINCE BEEN DISCOVERED TO BE IN VIOLATION OF DUE
PROCESS - IS BINDING WITHOUT EXCEPTION
n. CARBAJAL'S CONVICTION WOULD VIOLATE THE UNITED STATES CONSTITUTION
BECAUSE HE IS ACTUALLY INNOCENT OF THE ATTEMPTED RAPE OF SYLVIA CARBAJAL
The lower federal courts and state jurisdictions are split regarding die scope of constitutional
protections for the actually innocent and the standard for determining if a person has made a sufficient
showing. See Graves v. Cockrell, 351 F.3d 143,151 (5th Cir. 2003) (claims of actual innocence are not
cognizable on federal habeas review); Caniger v. Stewart, 132 F.3d 463,476 (9th Cir. 1997) (petitioner
"must affirmatively prove that he is probably innocent,” in derogation of panel opinion requiring clear
and convincing proof); Cornell v. Nix, 119 F.3d 1329,1335 (8th Cir. 1997) (standard “is at least as
exacting as the clear and convincing evidence standard, and possibly more so”); State v. Beach, 302
P.3d 47,54 (Mont 2013) (clear and convincing evidence that no reasonable juror would convict);
People v. Washington, 665 N.E.2d 1330,1337 (HI. 1996) (evidence of such conclusive character as
would probably change die result on retrial); State ex rel. Amrine v. Roper, 102 S.W.3d 541, 543 (Mo.
2003) (requiring "a clear and convincing showing of actual innocence that undermines confidence in
the correctness of the judgment”); In re Lawley, 179 P.3d 891,897 (Cal. 2008) (evidence of innocence
must, if credited, “undermine the entire prosecution case and point unerringly to innocence or reduced
culpability”); Miller v. Comm'r of Coir., 700 A.2d 1108,1130 (Conn. 1997) (actual innocence by clear
and convincing evidence, plus insufficiency of evidence in combined record to support finding of
guilt).
Because Carbajal has made a credible and comprehensive showing of his actual innocence and the
court has adjudicated the claim on the merits, this Court should (1) grant review on the issue, (2)
articulate the correct standard for determining a constitutional violation based on actual innocence, and
(3) enter judgment that Carbajal's constitutional rights were violated because he is actually innocent of
the attempted rape of Sylvia Carbajal.
CONCLUSION
Petitioner respectfully requests that the Court grant the petition for a writ of certiorari.
Respectfully submitted,

Date: ob/u^i

